No. 19-177
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL., PETITIONERS
v.
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC., ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE PETITIONER, via email and first-class mail, postage prepaid,
this 26TH day of November, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2864 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on November 26, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 26, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0177
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL.
ALLAINCE FOR OPEN SOCIETY INTERNATIONAL,
INC., ET AL.

DAVID W. BOWKER
WILMER HALE
1875 PENNSYLVANIA AVE., N.W.
WASHINGTON, DC 20006
DAVID.BOWKER@WILMERHALE.COM

